fos
I

C@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 >
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1530

STATE OF WEST VIRGINIA, ET AL.,
Petitioners,
v.

U.S. ENVIRONMENTAL PROTECTION AGENCY
AND MICHAEL REGAN, ADMINISTRATOR OF THE
U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF RESPONDENT
BASIN ELECTRIC POWER COOPERATIVE IN SUPPORT OF THE PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2685 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

erate | Kesee. 9. Linoa Onda tt, Ghee

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41050
